                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




                 We received an allegation that the subject' had copied text from a master's thesis available
         on the internet into his own NSF proposal2. Our analysis revealed a substantial amount of copying
         fi-om the master's thesis, therefore we wrote to the Subject to obtain his explanation.

                 In the Subject's response, he confirmed that he and the listed author of the master's thesis
         knew each other. The Subject had been a mentor and advisor to the master's thesis author for several
         years. The Subject further explained that upon the death of the master's student, he and other
         members of the lab facilitated the completion of the student's thesis. They did so in tribute to their
         deceased colleague and friend. The Subject clarified that the language used was similar because he
         was the author of the copied sections of text and had been drafting the two documents concurrently.

                We concluded that the Subject's explanation of the events was both plausible and genuine.
         Based upon that conclusion, we decided that no further investigation of research misconduct against
         the Subject would be necessary. Accordingly, this case is closed.



                                                                                                                      I
                                                                                                                      !




                                                                                                                  I




                                                                                                                  ~
                                                                                                                  I
                                                                                                                  1




NSF 01G Fonn 2 (11/02)
